                   U.S. Department of Energy
                   Office of Inspector General
                   Office of Audits and Inspections




AUDIT REPORT
Corrective Action Systems at the Pantex Plant




 OAS-L-15-01                          October 2014
                                 Department of Energy
                                    Washington, DC 20585

                                        October 20, 2014


MEMORANDUM FOR THE MANAGER, NATIONAL NUCLEAR SECURITY
               ADMINISTRATION PRODUCTION OFFICE



FROM:                    David Sedillo, Director
                         Western Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Corrective Action Systems at the
                         Pantex Plant"

BACKGROUND

The National Nuclear Security Administration's (NNSA) Pantex Plant (Pantex), formerly
managed and operated by Babcock & Wilcox Technical Services Pantex, LLC (B&W Pantex),
serves as the primary site for assembly and disassembly of nuclear weapons. In January 2013,
NNSA awarded a consolidated management and operating contract for Pantex and NNSA's Y-12
National Security Complex to Consolidated Nuclear Security, LLC (CNS). The 10-year contract
took effect on July 1, 2014, and is valued at approximately $23 billion.

To ensure safe and effective operations, the Department of Energy (Department) requires its
contractors to implement a quality assurance program to assist in the detection and correction of
actions and processes that do not meet established requirements. B&W Pantex implemented
several independent programs that comprised its corrective action systems to address identified
issues. Some of the primary programs included the Problem Evaluation Request/Electronic
Suspense Tracking and Routing System (PER/ESTARS) for reporting, tracking, resolving, and
trending issues requiring corrective actions; Employee Concerns Program, which enabled
employees to identify and seek resolution of workplace concerns; and the No More Surprises
Program, which allowed employees to electronically submit less significant issues to B&W
Pantex management.

Given the importance of ensuring safe and effective operations at Pantex, we initiated this audit
to determine whether corrective action systems were operating effectively to meet established
requirements. Due to the recent contractor transition and the fact that the new contractor had not
decided whether to replace the existing corrective action systems, our review was limited to the
systems in place under the prior management of Pantex.

RESULTS OF AUDIT

We found that B&W Pantex had generally implemented corrective action systems that provided
for the reporting, documenting, and tracking to resolution of findings, weaknesses, and
significant quality issues. However, we identified certain aspects of the program that needed
improvement; issues that should be considered by CNS as corrective action systems under the
new contract are implemented. Specifically:

   •   Several concerns were identified that were not included in PER/ESTARS, but should
       have been in accordance with B&W Pantex guidance. In particular, we found issues in
       the Employee Concerns Program, the No More Surprises Program, and internal
       assessments that met the criteria to require generation of a PER, however, none were
       created. This was, in part, because B&W Pantex personnel did not always have a full
       understanding of corrective action systems requirements.

   •   "Extent of condition" information, used to identify recurring and systemic issues, was
       inconsistent and incomplete in some cases. For example, we identified 18 of 52 PERs
       where the extent of condition was not adequately addressed or not documented at all.
       According to a B&W Pantex official, there was an overall lack of knowledge regarding
       when extent of condition reviews were required.

   •   Personnel responsible for the Employee Concerns Program did not periodically assess the
       effectiveness and direction of the program in meeting goals and objectives or perform
       activities to improve program operations, due to a lack of resources allocated to the
       program. According to a B&W Pantex official, the Employee Concerns Program did not
       have adequate staffing to ensure it was effectively administered.

As a result, there was an increased risk that quality or safety issues could remain unresolved.
Specifically, when identified issues were not entered into PER/ESTARS, they were not subject
to screening, cause analysis, and trending to identify repeat occurrences, generic issues, and
weaknesses before they became a more significant concern. In addition, there was an increased
risk that the lack of visibility of these issues could have adversely affected operational
performance and mission accomplishment.

Reporting Concerns

Although we did not identify any major violations of Department or Pantex Technical Safety
Requirements, we noted that several concerns were not properly reported. According to the
B&W Pantex Work Instruction Develop, Track and Administer Problem Evaluation Requests, a
PER should be generated for conditions, including findings, weaknesses, and discoveries of
noncompliance with internal or contractual requirements. Also, according to the B&W Pantex
Work Instruction Utilize the Employee Concerns or No More Surprises Programs, Employee
Concerns Program personnel were responsible for referring safety and quality issues to an
appropriate subject matter expert for evaluation. The subject matter expert would then be
responsible for generation of a PER, if appropriate. Creation of a PER was important because
the PER system was used for reporting, documenting, tracking, resolving, and trending an issue.

However, during our review of 85 Employee Concerns Program files and 492 No More Surprises
Program submissions from Fiscal Years (FY) 2011 through 2013, we found 7 concerns
submitted through the Employee Concerns Program and No More Surprises Program that

                                               2
appeared to meet the criteria for generation of a PER, yet none were generated. For example, we
found that one employee submitted a concern through the Employee Concerns Program
involving potential retaliation and safety concerns regarding the removal of a barricade from an
overhead door that safety personnel determined was unsafe. Another example related to a
concern submitted through the No More Surprises Program that initially started out as an issue
for security to address but ended up being a nuclear safety concern. Specifically, mailbox-type
keys used to maintain two-person access control to sensitive areas were not adequately
controlled.

According to B&W Pantex Governance and Performance Assurance officials, PERs would have
been appropriate for these cases. In the first example, the Employee Concerns Program
evaluated the retaliation aspect of the issue and referred the safety concern to management;
however, management failed to recognize the need for a PER submission. Also, PERs were not
generally required for No More Surprises Program submissions because they were typically
"quick-fix" issues that did not meet the reporting level of a PER. After we brought this issue to
B&W Pantex's attention, they agreed that there may be instances where a No More Surprises
Program submission would warrant generation of a PER. In fact, B&W Pantex officials stated
that they planned to start reviewing No More Surprises Program submissions on a weekly basis
to determine if the issues reported met PER criteria.

In addition, we reviewed 41 of B&W Pantex's 369 FY 2013 internal assessments and found 4
occurrences in which PERs were not generated as required. For instance, we noted one
weakness concerning an incorrect document reference to an archived work instruction regarding
sending and receiving classified matter that also met PER criteria. A PER was also not
generated in this situation. According to a B&W Pantex official, a PER was not generated for
this weakness because the corrective actions were assigned to a lead assessor who was not
familiar with the PER/ESTARS system; thus, he only entered the corrective actions into
ESTARS.

Documenting Extent of Condition

We also reviewed 52 PERs generated from the 41 FY 2013 internal assessments previously
mentioned and noted that in some cases, extent of condition information was inconsistent and
incomplete. This is significant because the extent of condition process is used to identify
recurring and systemic issues. We identified 18 PERs in which the extent of condition was not
adequately addressed or not documented at all. For instance, a PER was initiated for a weakness
regarding a plant document erroneously released to the public, an action which may have
included information that violated Federal regulations. The PER noted that an extent of
condition was not required, without further explanation or justification. In another example, a
PER was generated for a weakness regarding segregation of duty issues for access to the Work
Authorization Control System. The PER noted an extent of condition was not required because
it was an administrative issue. However, our review of B&W Pantex DESKAID, Causal
Analysis Graded Approach, revealed that an extent of condition review should have been
performed in both instances.




                                                3
According to a B&W Pantex official, although most PERs have some level of extent of condition
review, the level of detail concerning these reviews needed improvement. The official also
indicated that there was a lack of knowledge regarding when extent of condition reviews were
required, and individuals were unclear as to who was responsible for performing the reviews.

Staffing of the Employee Concerns Program

We further noted that the Employee Concerns Program did not appear to have adequate staffing
to ensure it was effectively administered. Specifically, we found that the Employee Concerns
Program was comprised of only two employees: one Human Resources Specialist and one
administrative position for approximately 3,300 Pantex employees. The Human Resources
Specialist held the position of Acting Employee Concerns Program Manager and was responsible
for implementing the program and assisting in the evaluation and resolution of employee
concerns. This individual also had the responsibility of managing the Equal Employment
Opportunity Program, Ethics Program, and Energy Employees Occupational Illness
Compensation Program. According to a B&W Pantex official, because of a lack of personnel,
staff did not periodically assess the effectiveness and direction of the program in meeting goals
and objectives. Staff was also unable to perform activities, such as assessments and surveys to
improve program operations. In the past, the Employee Concerns Program had a staff of five
individuals. However, according to the B&W Pantex official, positions were vacated over the
years and were not filled. The low staffing level was attributed, in part, to a perceived lack of
commitment by B&W Pantex management to the Employee Concerns Program. To its credit,
CNS told us that it was addressing the staffing issue.

IMPACT ON OPERATIONS

Failure to effectively use corrective action systems to manage identified issues could negatively
affect the safety and health of Pantex employees. Also, without effective corrective action
systems, quality issues may recur and continuous improvement will be difficult, thus, potentially
adversely affecting operational performance and mission accomplishment.

SUGGESTED ACTIONS

Because of the recent transition of the contract to CNS, we are not making formal
recommendations. However, we suggest that the Manager, National Nuclear Security
Administration Production Office, direct CNS to ensure:

   •   Employees fully understand requirements for corrective action systems; and

   •   Staffing is adequate for the Employee Concerns Program.

We appreciated the cooperation of your staff who provided information and assistance during the
audit.

Attachment


                                                4
cc:   Deputy Secretary
      Administrator, National Nuclear Security Administration
      Chief of Staff




                                             5
                                                                                     Attachment


                      OBJECTIVE, SCOPE, AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine whether corrective action systems at the Pantex
Plant were operating effectively to meet established requirements.

SCOPE

We performed this audit between October 2013 and October 2014, at the Pantex Plant, located
near Amarillo, Texas. The audit was conducted under Office of Inspector General Project
Number A14LV001.

METHODOLOGY

To accomplish the objective, we:

   •   Reviewed and analyzed procedures for corrective action systems that included the
       Differing Professional Opinions Program, Employee Concerns Program, No More
       Surprises Program submissions and the Problem Evaluation Request/Electronic Suspense
       Tracking and Routing System.

   •   Interviewed Federal and contractor personnel responsible for the management of the
       corrective action systems.

   •   Reviewed applicable Department of Energy orders and other guidance, policies, and
       procedures.

   •   Selected a sample of 41 assessments from a universe of 369 for Fiscal Year (FY) 2013 to
       determine whether identified issues were properly reported in the Corrective Action
       Program. We also reviewed all closed 85 Employee Concerns Program files and the 492
       No More Surprises Program submissions for FY 2011 through FY 2013 to determine
       whether weaknesses, quality issues, or other significant issues were reported in the
       Corrective Action Program and if the corrective actions properly addressed the
       weaknesses.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. The audit included tests of controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objective.
Additionally, we assessed the implementation of the GPRA Modernization Act of 2010 and found
that performance measures related to the corrective action systems were established as required.
Because our review was limited, it would not necessarily have disclosed all internal control


                                                6
                                                                                        Attachment


deficiencies that may have existed at the time of our audit. We did not rely on computer-
processed data to satisfy our audit objective and therefore did not conduct a data reliability
assessment. Management waived an exit conference.




                                                 7
                                         FEEDBACK

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                              Office of Inspector General (IG-12)
                                     Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
